CERTIFICATE OF SERVICE
I hereby certify that a copy of Petitioners’ Petition for Writ of Certiorari was
electronically filed with the Clerk of the Court for the Supreme Court of the United
States by using the CM/ECF system on November 3, 2020 to the following party:
A. Bondurant Eley, Esq.
Civil Division
Department of Justice
P.O. Box 480, Ben Franklin Station
Washington, D.C. 20044
Email:
Bondurant.Eley@usdoj.gov
/s/ Steven R. Schooley
Steven R. Schooley, Esq.
The Schooley Law Firm
108 Hillcrest Street
Orlando, FL 32801
Telephone: (407) 377-6300
Facsimile: (407) 377-6036
Attorney for Petitioners, Robert Kinghorn and the
Law Office of Frederick Huff, Interveners

